PROOF OF SERVICE.
I, Henry Frederick Ramey, Jr, am a resident of the County of Los
Angeles, State of California. I am over the age of 18 years, and I am not a
party to this action. My address is 24784 5th St., San Bernardino, California.
On July 9, 2021, I served the foregoing copies of SUPPLEMENTAL
BRIEF on the interested parties in this action by placing the following true
copies, enclosed in a sealed envelope addressed as follows:
CLERK,
APPELLATE DIVISION OF THE
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN BERNARDINO
8303 HAVEN AV.
RANCHO CUCAMONGA, CA., 91730
MICHAEL C. EARLE
FAST EVICTION SERVICES
474 W. ORANGE SHOW RD.
SAN BERNARDINO, CA., 92408
On the above date, I delivered such papers via United States Post
Office to the addressees at San Bernardino, California.
Under the penalty of perjury, I declare that the foregoing is true and
correct, and that this declaration was executed on July 9, 2021, at San
Bernardino, California.

